No. _______

IN THE SUPREME COURT OF THE UNITED STATES

JANE DOES 1–6, JOHN DOES 1–3, JACK DOES 1–1000, JOAN DOES 1–1000,
Applicants,
v.
JANET T. MILLS, in her official capacity as Governor of the State of Maine,
JEANNE M. LAMBREW, in her official capacity as Commissioner of the Maine
Department of Health and Human Services, NIRAV D. SHAH, in his official
capacity as Director for the Maine Center for Disease Control and Prevention,
MAINEHEALTH, GENESIS HEALTHCARE OF MAINE, LLC, GENESIS
HEALTHCARE, LLC, NORTHERN LIGHT HEALTH FOUNDATION,
MAINEGENERAL HEALTH,
Respondents.

Petitioner’s Motion for Writ of Injunction Pending Appel
RELIEF NEEDED TODAY, OCTOBER 15, 2021

Mathew D. Staver (Counsel of Record)
Anita L. Staver
Horatio G. Mihet
Roger K. Gannam
Daniel J. Schmid
LIBERTY COUNSEL
P.O. Box 540774
Orlando, FL 32853
(407) 875-1776
court@LC.org |hmihet@LC.org
rgannam@LC.org | dschmid@LC.org
Counsel for Applicants

PARTIES
Applicants are JANE DOES 1–6, JOHN DOES 1–3, JACK DOES 1–1000,
JOAN DOES 1–1000. Respondents are JANET T. MILLS, in her official capacity as
Governor of the State of Maine, JEANNE M. LAMBREW, in her official capacity as
Commissioner of the Maine Department of Health and Human Services, NIRAV D.
SHAH, in his official capacity as Director for the Maine Center for Disease Control
and Prevention, MAINEHEALTH, GENESIS HEALTHCARE OF MAINE, LLC,
GENESIS HEALTHCARE, LLC, NORTHERN LIGHT HEALTH FOUNDATION,
MAINEGENERAL HEALTH.
DIRECTLY RELATED PROCEEDINGS
JANE DOES 1-6, et al. v. MILLS, et al., No. 21-1826 (1st Cir. Oct. 15, 2021), Order
denying Emergency Motion for Injunction Pending Appeal, attached hereto as
EXHIBIT 1.
JANE DOES 1-6, et al. v. MILLS, et al.. No. 1:21-cv-242-JDL (D. Me. October 13,
2021), Order Denying Motion for Injunction Pending Appeal, attached hereto as
EXHIBIT 2.
JANE DOES 1-6, et al. v. MILLS, et al.. No. 1:21-cv-242-JDL (D. Me. October 13,
2021), Order Denying Motion for Preliminary Injunction, attached hereto as
EXHIBIT 3.

ii

TABLE OF CONTENTS
PARTIES………………………………………………………………………………………..ii
DIRECTLY RELATED PROCEEDINGS…………………………………………………..ii
TABLE OF CONTENTS……………………………………………………………………...iii
TABLE OF AUTHORITIES…………………………………………………………………..v
INTRODUCTION………………………………………………………………………………1
TEMPORARY AND LIMITED RELIEF SOUGHT………………………………………..2
JURISDICTION AND TIMING……………………………………………………………...3
URGENCIES JUSTIFYING EMERGENCY RELIEF…………………………………….4
LEGAL ARGUMENT………………………………………………………………………...13
I.

APPLICANTS HAVE A CLEAR AND INDISPUTABLE RIGHT TO
RELIEF BECAUSE DEFENDANTS’ INTENTIONAL REMOVAL OF
RELIGIOUS EXEMPTIONS FROM THE VACCINE MANDATE
WHILE ALLOWING MEDICAL EXEMPTIONS VIOLATES THE
FIRST AMENDMENT……………………………………………………………….13
A.

Maine’s Singling Out of Religious Employees Who Decline
Vaccination for Especially Harsh Treatment Is Not Religiously
Neutral…………………………………………………………………………13

B.

The Vaccine Mandate’s More Favorable Treatment of Employees
Declining Vaccination for Secular, Medical Reasons as Compared
to Employees Declining Vaccination for Religious Reasons Is Not
Generally Applicable…………………………………………………………14

C.

Maine’s Discriminatory Treatment of Religious Exemptions Is
Subject to and Cannot Withstand Strict Scrutiny ……………………….17
1.

Maine’s favorable treatment of exemptions posing equal
risks, and Maine’s questionable risk assumptions
undermine its claim of a compelling interest……………………...17

iii

2.

II.

III.

IV.

a.

Maine’s favorable treatment of medical exemptions
posing risks equal to excluded religious exemptions
undermines its compelling interest claim…………………17

b.

Maine’s claimed compelling interest is based on
questionable risk assumptions as shown by scientific
evidence in the Verified Complaint and from the
CDC……………………………………………………………..19

Maine Stands Virtually Alone In Its Blanket Refusal to
Extend Religious Accommodations and Its Mandate is Not
the Least Restrictive Means…………………………………………20

APPLICANTS HAVE A CLEAR AND INDISPUTABLE RIGHT TO
RELIEF BECAUSE DEFENDANTS’ WHOLESALE REJECTION OF
RELIGIOUS ACCOMMODATIONS IS PLAINLY INCONSISTENT
WITH TITLE VII AND IS THEREFORE NULLIFIED AND
SUPERSEDED BY FEDERAL LAW……………………………………………….25
A.

Title VII Supersedes Maine’s Rule Because Even the Employer
Defendants Have Admitted That Title VII’s Requirement of
Religious Accommodation and Maine’s Revocation of Religious
Exemptions Are in Conflict and That They Cannot Comply With
Both……………………………………………………………………………..25

B.

Title VII Explicitly Preempts State Laws, Like Maine’s, That
Require the Doing of an Act That Is Prohibited by Title VII…………..28

APPLICANTS ARE SUFFERING IRREPARABLE HARM……………………30
A.

Applicants Are Suffering Irreparable First Amendment Injury……….30

B.

Injunctive Relief Is Needed to Preserve The Status Quo For
Applicants’ Title VII Claims…………………………………………………31

PLAINTIFFS SATISFY THE OTHER IPA REQUIREMENTS……………….33

CONCLUSION………………………………………………………………………………..33

iv

TABLE OF AUTHORITIES
CASES
Agudath Israel of Am. v. Cuomo, 983 F.3d 620 (2d Cir. 2020)………………………….24
Ashcroft v. ACLU, 542 U.S. 656 (2004)…………………………………………………….24
Bruni v. City of Pittsburgh, 824 F.3d 353 (3d Cir. 2016)………………………………..24
California Fed. Savings & Loan Assoc. v. Guerra, 479 U.S. 272 (1987)………………26
Cunningham v. City of Shreveport, 407 F. Supp. 3d 595 (W.D. La. 2019)…………….17
Dahl v. Bd. of Trustees of W. Michigan Univ., No. 21-2945,
2021 WL 4618519 (6th Cir. Oct. 7, 2021)……………………………….…………….passim
Dr. A v. Hochul, No. 1:21-CV-1009,
2021 WL 4734404 (N.D.N.Y. Oct. 12, 2021)…………………………….…………...passim
EEOC v. Abercrombie & Fitch Stores, Inc., 575 U.S. 768 (2015)………………………..7
Fraternal Order of Police Newark Lodge No. 12 v. City of Newark,
170 F.3d 359 (3d Cir. 1999)………………………………….…………………...….14, 15, 16
Haywood v. Drown, 556 U.S. 729 (2009)…………………………………………………….6
Hillsborough Cnty. v. Automated Med. Labs., Inc., 471 U.S. 707 (1985)………………6
Litzman v. N.Y. City Police Dep’t, No. 12 Civ. 4681(HB),
2013 WL 6049066 (S.D.N.Y. Nov. 15, 2013)……………………………………...………..16
Maryville Baptist Church, Inc. v. Beshear, 957 F.3d 610 (6th Cir. 2020)……….........17
McCullen v. Coakley, 134 S. Ct. 2518 (2014)………………………………………………24
Murphy v. NCAA, 138 S. Ct. 1461, 1480 (2018)
Roman Catholic Diocese of Brooklyn v. Cuomo, 141 S. Ct. 63 (2020)…......9, 12, 13, 30
Romero Feliciano v. Torres Gaztambide, 836 F.2d 1 (1st Cir. 1987)…………………..31
v

Sheehan v. Purolator Courier Corp., 676 F.2d 877 (2d Cir. 1981)…………………31, 32
Sindicator Puertorriqueno de Trabajaddores v. Fortuno,
699 F.3d 1 (1sr Cir. 2012)…………………………………………………………………….30
Singh v. McHugh, 185 F. Supp. 3d 201 (D.D.C. 2016)…………………………….…16, 17
South Bay United Pentecostal Church v. Newsom, 141 S. Ct. 716 (2021)…………….13
Tandon v. Newsom, 141 S. Ct. 1294 (2021)……………………………..…….….13, 20, 30
Trans World Airlines, Inc. v. Hardison, 432 U.S. 63 (1977)…………………………….25
Ward v. Polite, 667 F.3d 727 (6th Cir. 2012)………………………………………………16
Westchester Legal Servs., Inc. v. Westchester Cnty.,
607 F. Supp. 1379 (S.D.N.Y. 1985)………………………………………………………….30
We The Patriots USA, Inc. v. Hochul, No. 21-2179,
dkt. 65 (2d Cir. Sept. 30, 2021)……………….……………………………………………….8
STATUTES
28 U.S.C. §1651…………………………………………………………………………………1
28 U.S.C. §2101…………………………………………………………………………………1
Fed. R. App. P. 8………………………………………………………………………...………4
Sup. Ct. Rule 21…………………………………………………………………………………1

vi

.INTRODUCTION
Pursuant to Sup. Ct. Rule 21, 28 U.S.C. §1651, and 28 U.S.C. §2101,
Petitioners JANE DOES 1–6, JOHN DOES 1–3, JACK DOES 1–1000, JOAN DOES
1–1000 hereby move this Court for an Emergency Writ of Injunction Pending Appeal.
Because of the deadline imposed by Defendants’ unconstitutional, unlawful,
and unconscionable demands that Applicants violate their sincerely held
religious conscience by TODAY, October 15, 2021, relief cannot wait another
day. Plaintiffs and other healthcare workers in Maine are already being told
not to report to work tomorrow absent Court-ordered relief or violation of
their sincerely held religious beliefs. For many years prior to the instant
action and in strict compliance with federal law, Defendants permitted
healthcare workers in the State of Maine to apply for and receive religious
exemptions to mandatory vaccine requirements. Yet, on August 14, 2021,
Maine stripped all protections for religious objectors to any vaccination
requirement in conjunction with its emergency declaration that all
healthcare workers in Maine receive a COVID-19 vaccination. (EXHIBIT 4,
Verified Complaint, “V. Compl.” ¶41-49.) Defendants now also threaten all Applicants
with the immediate termination of their ability to feed their families, a loss of their
license for failing to abide by the unconstitutional and unlawful mandate, and
attempt to turn their religious beliefs into First Amendment orphans. Relief is needed
today to protect Applicants’ sincerely held religious beliefs

1

TEMPORARY AND LMITED RELIEF SOUGHT
State Defendants’ deadline to become fully vaccinated is October 29,
2021, which requires Plaintiffs to accept a vaccination that violates their
sincerely held religious beliefs by no later than TODAY, Friday, October 15,
2021. The relief sought in the instant Application is needed today to protect
Plaintiffs’ cherished First Amendment liberties and prevent irreparable harm.
Plaintiffs have moved expeditiously and with extreme urgency, filing their notice of
appeal within 1 hour of the district court’s denial of injunctive relief, and filing this
motion in this Court on the very next morning, within a few minutes of the appeal
being docketed.
On Plaintiffs-Appellants JANE DOES 1–6, JOHN DOES 1–3, JACK DOES 1–
1000, JOAN DOES 1–1000, (“Plaintiffs”) on an emergency basis, hereby move this
Court for an Injunction Pending Appeal, restraining and enjoining Defendants–
Appellees, all of their officers, agents, employees, and attorneys, and all other persons
in active concert or participation with them, from enforcing, threatening to enforce,
attempting to enforce, or otherwise requiring compliance with the Governor’s
COVID-19 Vaccine Mandate such that
i.

Defendant Governor Mills will not enforce her unconstitutional mandate
that John Doe 1 require his employees to receive a COVID-19 vaccine
and refuse to provide a religious exemption or accommodation for such
employees in violation of John Doe 1’s and his employees’ sincerely held
religious beliefs;

2

ii.

Defendants will immediately cease in their refusal to consider, review,
and

grant

Plaintiffs’

requests

for

religious

exemption

and

accommodation from the Governor’s COVID-19 Vaccine Mandate,
provided that Plaintiffs agree to abide by reasonable accommodation
provisions such as masking, testing, symptom monitoring, and
reporting; and
iii.

Defendants will immediately cease threatening to discharge and
terminate Plaintiffs from their employment for failure to accept a
COVID-19 vaccine that violates their sincerely held religious beliefs.

Applicants seek very limited and interim relief from this Court. Applicants
have a currently pending appeal in this instant action at the First Circuit. The First
Circuit has ordered expedited relief with all parties briefs due October 18, and a
decision to issue expeditiously thereafter. However, irreparable harm will result
absent relief pending disposition of the appeal and any petitions for certiorari.
JURISDICTION AND TIMING
Plaintiffs filed this action on August 25, 2021 (Exhibit 4), and immediately
moved for preliminary injunctive relief. (Dkt. 3). Over Plaintiffs’ objections, the Court
delayed a hearing until September 20, 2021. (Dkt. 44). The Court then held Plaintiffs’
motion under advisement for more than three weeks, waiting until two days
before Plaintiffs’ vaccine compliance deadline to rule on an emergency
motion that had been briefed and argued for nearly a month. On October 13,
2021, the district court finally denied Plaintiffs’ Motion for Preliminary Injunction,

3

holding that Plaintiffs were unlikely to succeed on the merits of their challenge to the
Governor’s COVID-19 Vaccine Mandate (Exhibit 3, PI Order at 14). Plaintiffs noticed
their appeal to the First Circuit on the same day, within one hour of the PI Order.
In conjunction with Plaintiffs’ Motion for Preliminary Injunction and pursuant
to Fed. R. App. P. 8(a)(1)(C), Plaintiffs also requested alternative relief in the form of
an injunction pending appeal should the court deny the preliminary injunction.
(EXHIBIT 5, Motion for Temporary Restraining Order, Preliminary Injunction, and
Injunction Pending Appeal, “PI Motion”). The district court also denied Plaintiffs’.
Motion for Injunction Pending Appeal. (Exhibit 2.) Within one hour of the First
Circuit docketing Plaintiffs’ appeal on October 14, Applicants filed an Emergency
Motion for Injunction Pending Appeal with the First Circuit. Without any discussion
or explanation, the First Circuit Court of Appeals denied that Motion on October 15.
(Exhibit 1.) Applicants present this Motion today, October 15, the same day
as their IPA denial from the First Circuit due to the extraordinary urgency
of Defendants’ unconscionable, unconstitutional, and unlawful demands.
URGENCIES JUSTIFYING EMERGENCY RELIEF
The seminal issue before this Court can be boiled down to a simple question:
Does federal law apply in Maine? Though the question borders on the absurd, so does
Defendants’ answer to it. Defendants have explicitly claimed to healthcare workers
in Maine, including Plaintiffs, that federal law does not apply, and neither should
they. Defendants have informed Plaintiffs, who have sincerely held religious
objections to the Governor’s mandate that all healthcare workers in Maine must

4

receive a COVID-19 vaccine by October 1, 2021 (the “COVID-19 Vaccine
Mandate”), that no protections or considerations are given to religious beliefs in
Maine. Indeed, Defendants’ answer has been an explicit claim that federal law does
not provide protections to Maine’s healthcare workers. When presented with requests
from Plaintiffs for exemption and accommodation for their sincerely held religious
beliefs, Defendants have responded in the following ways:
•

“I can share MaineHealth’s view that federal law does not
supersede state law in this instance.” (V. Compl. ¶87
(emphasis added).)

•

“[W]e are no longer able to consider religious exemptions
for those who work in the state of Maine.” (V. Compl. ¶84
(bold emphasis original).)

•

“All MaineGeneral employees will have to be vaccinated against
COVID-19 by Oct. 1 unless they have a medical exemption. The
mandate also states that only medical exemptions are allowed, no
religious exemptions are allowed.” (V. Compl. ¶93 (emphasis
added).)

•

“Allowing for a religious exemption would be a violation of the
state mandate issued by Governor Mills. So, unfortunately, that
is not an option for us.” (V. Compl. ¶94.)

The answer to the question before this Court is clear: federal law and the
United States Constitution are supreme over any Maine statute or edict, and Maine
cannot override, nullify, or violate federal law. See U.S. Const. Art. VI, cl. 2 (“This
Constitution, and the Laws of the United States which shall be made in Pursuance
thereof; and all Treaties made, or which shall be made, under the Authority of the
United States, shall be the supreme Law of the Land; and the Judges in every State
shall be bound thereby, any Thing in the Constitution or Laws of any State to the

5

Contrary notwithstanding.”). “This Court has long made clear that federal law is as
much the law of the several States as are the laws passed by their legislatures.”
Haywood v. Drown, 556 U.S. 729, 734 (2009). Indeed, “[i]t is a familiar and wellestablished principle that the Supremacy Clause . . . invalidates state laws
that interfere with, or are contrary to, federal law. Under the Supremacy
Clause . . . state law is nullified to the extent that it actually conflicts with
federal law.” Hillsborough Cnty. v. Automated Med. Labs., Inc., 471 U.S. 707, 71213 (1985) (emphasis added) (cleaned up).
Thus, there can be no dispute that Maine is required to abide by federal
law and provide protections to employees who have sincerely held religious
objections to the COVID-19 vaccines. And, here, the federal law is clear: There
can be no dispute that Title VII of the Civil Rights Act prohibits Defendants from
discriminating against Plaintiffs on the basis of their sincerely held religious beliefs.
42 U.S.C. §2000e-2(a) (“It shall be an unlawful employment practice for an employer
. . . to fail or refuse to hire or to discharge any individual, or otherwise to discriminate
against any individual with respect to his compensation, terms, conditions, or
privileges of employment because of such individual’s . . . religion.”). And, Defendants
have a duty under Title VII to provide religious exemptions and accommodations to
those with sincerely held religious objections to the COVID-19 Vaccine Mandate. In
direct contrast to this unquestionable principle of black letter law, however, every
Defendant in this suit has seen fit to claim to its healthcare workers that the converse
is true, and that Maine law is supreme over federal law; has engaged in a conspiracy

6

and scheme to discourage employees with religious objections to the mandatory
vaccines from even seeking religious exemptions from such a policy; has informed
Plaintiffs that their requests for an exemption and accommodation from the mandate
cannot even be evaluated or considered; and has flatly denied all requests for religious
exemption and accommodation from the mandate that all healthcare workers receive
a COVID-19 vaccine. Employers bent on discrimination “usually don’t post help
wanted signs reading ‘blacks need not apply.’” Lewis v. City of Unity City, 918 F.3d
1213, 1261 (11th Cir. 2019) (Rosenbaum, J., concurring in part). But Maine and its
healthcare employers have no problem being direct: “religious misbelievers need
not apply.”
The dispute in this case is not about what accommodations are available to
Plaintiffs or whether accommodation of Plaintiffs’ sincerely held religious objections
can be conditioned on compliance with certain reasonable requirements. Plaintiffs
have already acknowledged to Defendants that they are willing to comply with
reasonable health and safety requirements that were deemed sufficient a mere two
weeks ago. The dispute is about whether Defendants are required to even consider a
request for reasonable accommodation of Plaintiffs’ sincerely held religious beliefs.
The answer is clear: yes. And this Court should require Defendants to acknowledge
and accept that federal law mandates accommodation for Plaintiffs’ sincerely held
religious beliefs and order that Defendants extend such protections.
As the Northern District of New York has just held when it enjoined New
York’s very similar scheme: “‘Title VII does not demand mere neutrality with

7

regard to religious practices . . . rather, it gives them favored
treatment.’ Thus,

under

certain

circumstances,

Title

VII

‘requires

otherwise-neutral policies to give way to the need for an accommodation.’”
Dr. A v. Hochul, No. 1:21-CV-1009, 2021 WL 4734404, *9 (N.D.N.Y. Oct. 12, 2021)
(quoting EEOC v. Abercrombie & Fitch Stores, Inc., 575 U.S. 768, 775-776 (2015))
(emphasis added). Indeed, the court in Dr. A plainly held that plaintiffs were likely
to succeed on the merits of their claims because – as here – the Governor’s mandate
“has effectively foreclosed the pathway to seeking a religious accommodation that is
guaranteed under Title VII.” Id. at *6. And this Court should require Defendants to
acknowledge and accept that federal law mandates accommodation for Plaintiffs’
sincerely held religious beliefs and order that Defendants extend such protections.
On September 30, 2021, the Second Circuit gave its imprimatur to the Dr. A.
TRO against State Defendants in We The Patriots USA, Inc. v. Hochul, No. 21-2179,
dkt. 65 (2d Cir. Sept. 30, 2021). There, the Second Circuit issued an injunction
pending appeal against the Governor’s COVID-19 Vaccine Mandate, ordering that
the New York State Defendants are enjoined from enforcing their mandate.
On October 7, 2021, the Sixth Circuit issued an order affirming a preliminary
injunction against Western Michigan University for its similar refusal to grant
requested religious accommodations from a mandatory COVID-19 vaccine policy. See
Dahl v. Bd. of Trustees of W. Michigan Univ., No. 21-2945, 2021 WL 4618519 (6th
Cir. Oct. 7, 2021). In denying the university’s request for a stay, the Sixth Circuit

8

concluded that the student athletes’ “free exercise challenge will likely succeed on
appeal.” Id. at *1. Specifically,
the University’s failure to grant religious exemptions to plaintiffs
burdened their free exercise rights. The University put plaintiffs to
the choice: get vaccinated or stop fully participating in
intercollegiate sports. . . . By conditioning the privilege of
playing sports on plaintiffs’ willingness to abandon their sincere
religious beliefs, the University burdened their free exercise
rights.
Id. at *3 (emphasis added).
The court continued,
But the mandate does penalize a student otherwise qualified for
intercollegiate sports by withholding the benefit of playing on the team
should she refuse to violate her sincerely held religious beliefs. As a
result,
plaintiffs
have
established
that
the
University's vaccination policy for student-athletes burdens
their free exercise of religion.
Id. (emphasis added).
As here, the university offered medical exemptions and, theoretically, religious
exemptions to its student-athletes, but refused to provide religious accommodations.
Id. at *1. The Sixth Circuit found that such a discriminatory scheme of individualized
exemptions made the vaccine mandate not neutral or generally applicable. Id. at *4.
That alone was sufficient to mandate the application of strict scrutiny under Roman
Catholic Diocese of Brooklyn v. Cuomo, 141 S. Ct. 63, 67 (2020).
If Plaintiffs do not comply with the vaccine mandate by today, they
will be terminated and deprived of their ability to feed their families.
Plaintiffs are facing a deadline to become fully vaccinated to October 29,

9

which requires Plaintiffs to accept a vaccination by no later than TODAY,
Friday, October 15.
Relief cannot wait another day. No American should be faced with this
unconscionable choice, especially the healthcare heroes who have served us
admirably for the entire duration of COVID-19. An IPA is needed now to ensure that
Defendants are enjoined from their continued efforts to deny that federal law even
applies in Maine and to compel Defendants to extend the protections that federal law
demands of them. Plaintiffs will suffer (and some have already suffered) irreparable
harm by being forced to choose between their jobs and their sincerely held religious
beliefs. Despite the Governor’s mandate only requiring full vaccination by October 1,
Plaintiff Jane Doe 2 was told her deadline to comply with the mandate was August
23, and she has already suffered termination as a result of the Governor’s mandate.
Relief from this unconscionable and unlawful deprivation of Plaintiffs’ liberties
cannot wait another day.
Earlier this year, the Governor rightfully declared that Maine’s healthcare
workers were “Superheroes” and requested that “all Maine people join me in thanking
all of our healthcare workers who have heeded the call of duty and worked long hours,
days, and weeks, often at great sacrifice to themselves and their families, to protect
Maine people during this extraordinary crisis.” Office of Governor Janet T. Mills,
Governor Mills Announces Four Maine Healthcare Superheroes to Attend Super Bowl
LV Thanks to Generosity of New England Patriots’ Kraft Family (Feb. 2, 2021),
https://www.maine.gov/governor/mills/news/governor-mills-announces-four-maine-

10

healthcare-superheroes-attend-super-bowl-lv-thanks. Every word of that statement
is equally as true today as it was the day the Governor uttered it. Yet, on August
12, 2021, those same superheroes have now been cast as evil villains for
requesting exemption and accommodation from the Governor’s edict for
their sincerely held religious beliefs.
Neither the Governor nor any of the Defendant employers is permitted to
blatantly ignore federal protections under the First Amendment and Title VII, yet
that is precisely why emergency relief is needed in the instant action: Plaintiffs need
an order mandating that Defendants follow federal protections for religious
objectors to the COVID-19 Vaccine Mandate.
Plaintiffs are all healthcare workers in Maine who have sincerely held religious
beliefs that preclude them from accepting any of the COVID-19 vaccines because of
the vaccines’ connections to aborted fetal cell lines and for other religious reasons
that have been articulated to Defendants. Since COVID-19 first arrived in Maine,
Plaintiffs have risen every morning, donned their personal protective equipment, and
fearlessly marched into hospitals, doctor’s offices, emergency rooms, operating rooms,
and examination rooms with one goal: to provide quality healthcare to those suffering
from COVID-19 and every other illness or medical need that confronted them. They
did it bravely and with honor. They answered the call of duty to provide healthcare
to the folks who needed it the most and worked tirelessly to ensure that those ravaged
by the pandemic were given appropriate care. All Plaintiffs seek in this lawsuit
is to be able to continue to provide the healthcare they have provided to

11

patients for their entire careers, and to do so under the same protective
measures that have sufficed for them to be considered superheroes for the
last 18 months. Defendants shamelessly seek to throw these healthcare workers out
into the cold and ostracize them from the very medical facilities for which they have
sacrificed so much solely because of Plaintiffs’ desire to continue to provide quality
healthcare while still exercising their sincerely held religious beliefs.
The law mandates that Defendants permit them to do both. Regardless of
whether Maine sees fit to extend protections to religious objectors under its own
statutory framework, federal law demands that these Plaintiffs and all
employees in Maine receive protections for their sincerely held religious
beliefs. This Court should hold Maine to the bargain it made with its citizens when
it joined the union and ensure that Maine extends the required protections that
federal law demands. As the Supreme Court held just last year, “even in a
pandemic, the Constitution cannot be put away and forgotten.” Roman
Catholic Diocese of Brooklyn v. Cuomo, 141 S. Ct. 63, 68 (2021) (emphasis added).
When we have demanded so much of our healthcare heroes, we owe them nothing
less than the full measure of our own commitment to constitutional principles.
Anything less would be desecrating the sacrifice these medical heroes made for untold
numbers of people—including Defendants—when the call of duty demanded it of
them.

12

LEGAL ARGUMENT
I.

APPLICANTS HAVE A CLEAR AND INDISPUTABLE RIGHT TO
RELIEF BECAUSE DEFENDANTS’ INTENTIONAL REMOVAL OF
RELIGIOUS EXEMPTIONS FROM THE VACCINE MANDATE WHILE
ALLOWING MEDICAL EXEMPTIONS VIOLATES THE FIRST
AMENDMENT.
A.

Maine’s Singling Out of Religious Employees Who Decline
Vaccination for Especially Harsh Treatment Is Not Religiously
Neutral.

“[G]overnment regulations are not neutral and generally applicable,
and therefore trigger strict scrutiny under the Free Exercise Clause,
whenever they treat any comparable secular activity more favorably than
religious exercise.” Tandon v. Newsom, 141 S. Ct. 1294, 1296 (2021) (bold emphasis
added). In fact, “the regulations cannot be viewed as neutral because they single out
[religion] for especially harsh treatment.” Roman Catholic Diocese of Brooklyn v.
Cuomo, 141 S. Ct. 63, 66 (2020). “When a state so obviously targets religion for
differential treatment, our job becomes much clearer.” South Bay, 141 S. Ct.
at 717 (Gorsuch, J.) (emphasis added).
Here, Maine has plainly singled out religious employees who decline
vaccination for especially harsh treatment (i.e., depriving them from earning a living
anywhere in the State), while favoring employees declining vaccination for secular,
medical reasons. Under the Tandon, South Bay, and Catholic Diocese triumvirate,
Government Defendants’ discriminatory treatment of unvaccinated religious
employees violates the First Amendment. Under the prior version of Maine’s
immunization exemption requirements, Maine allowed for (a) medical exemptions,

13

and (b) exemptions for any employee who “states in writing an opposition to
immunization because of a sincerely held religious belief.” (V. Compl. ¶ 48.) On
August 14, 2021, however, Maine removed only the religious exemption from the
rule. (V. Compl. ¶46.) Indeed, where – as here – the government has removed a
previously available religious exemption, that “intentional change in language is the
kind of ‘religious gerrymander’ that triggers heightened scrutiny.” Dr. A v. Hochul,
No. 1:21-cv-1009, 2021 WL 4734404, *8 (N.D.N.Y. Oct. 12, 2021).
B.

The Vaccine Mandate’s More Favorable Treatment of Employees
Declining Vaccination for Secular, Medical Reasons as
Compared to Employees Declining Vaccination for Religious
Reasons Is Not Generally Applicable.

Maine’s continuing recognition of only medical exemptions also removes the
Vaccine Mandate from neutrality and general applicability. As Dr. A held this week,
where the government permits medical exemptions from the mandate, but excludes
religious exemptions, the law is not neutral. 2021 WL 4734404, at *8. In Fraternal
Order of Police Newark Lodge No. 12 v. City of Newark, Justice (then-Judge) Alito
wrote unequivocally for the court that “[b]ecause the Department makes
exemptions from its [no beards] policy for secular reasons and has not
offered any substantial justification for refusing to provide similar
treatment for officers who are required to wear beards for religious reasons,
we conclude that the Department's policy violates the First Amendment.”
170 F.3d 359, 360 (3d Cir. 1999) (emphasis added). There, like Maine here, the city
argued that it was required to provide medical accommodations under federal law
but that religious exemptions were not required. Id. at 365. The court squarely
14

rejected that rationale: “It is true that the ADA requires employers to make
reasonable accommodations for individuals with disabilities. However, Title VII of
the Civil Rights Act of 1964 imposes an identical obligation on employers
with respect to accommodating religion.” Id. (emphasis added) (cleaned up).
Thus, the court held, “we cannot accept the Department's position that its
differential treatment of medical exemptions and religious exemptions is
premised on a good-faith belief that the former may be required by law
while the latter are not.” Id. (emphasis added).
Here, the district court found that the availability of medical exemptions, while
religious exemptions were specifically targeted and excluded, does not violate the
First Amendment because the two are not comparable. (PI Order at 19.) Justice Alito
squarely rejected that contention:
We also reject the argument that, because the medical exemption is not
an “individualized exemption,” the Smith /Lukumi rule does not apply.
While the Supreme Court did speak in terms of “individualized
exemptions” in Smith and Lukumi, it is clear from those decisions
that the Court’s concern was the prospect of the government’s
deciding that secular motivations are more important than
religious motivations. If anything, this concern is only further
implicated when the government does not merely create a
mechanism for individualized exemptions, but instead, actually
creates a categorical exemption for individuals with a secular
objection but not for individuals with a religious objection.
Fraternal Order of Police, 170 F.3d at 365 (emphasis added) (cleaned up). The same
is true here. Maine maintained a policy that permitted religious exemptions and
medical exemptions to mandatory vaccinations. (V. Compl. ¶ 48.) Then, Maine
specifically removed religious exemptions while maintaining medical exemptions. (V.

15

Compl. ¶¶ 46–47.) And, that discriminatory removal of a religious exemption while
maintaining a medical exemption violates the First Amendment. 170 F.3d at 365
(“Therefore, we conclude that the Department's decision to provide medical
exemptions while refusing religious exemptions is sufficiently suggestive of
discriminatory

intent

so

as

to

trigger

heightened

scrutiny

under Smith and Lukumi.” (emphasis added)).
Here, Maine claims secular, medical reasons for declining vaccination are
important enough to overcome its purported interest but that religious reasons for
declining vaccination are not. Such a value judgment does not legitimize a
discriminatory policy:
[T]he medical exemption raises concern because it indicates
that the Department has made a value judgment that secular
(i.e., medical) motivations for wearing a beard are important
enough to overcome its general interest in uniformity but that
religious motivations are not. As discussed above, when the
government makes a value judgment in favor of secular
motivations, but not religious motivations, the government’s
actions must survive heightened scrutiny.
170 F.3d at 366 (emphasis added). Essentially, as here, “[w]e thus conclude that
the Department's policy cannot survive any degree of heightened scrutiny
and thus cannot be sustained.” Id. at 367 (emphasis added).
The Northern District of New York’s decision in Dr. A, and Justice Alito’s
opinion for the court in Fraternal Order of Police hardly represent a novel proposition.
As the Sixth Circuit explained, “a double standard is not a neutral standard.” Ward
v. Polite, 667 F.3d 727, 740 (6th Cir. 2012). As many courts have recognized, allowing
medical exemptions while prohibiting religious exemptions is unconstitutional. See,
16

e.g., Litzman v. N.Y. City Police Dep’t, No. 12 Civ. 4681(HB), 2013 WL 6049066, *3
(S.D.N.Y. Nov. 15, 2013) (holding that a policy that permits medical exemptions but
not religious exemptions is neither neutral nor generally applicable and must be
subject to strict scrutiny); Singh v. McHugh, 185 F. Supp. 3d 201, 225 (D.D.C. 2016)
(“In sum, it is difficult to see how accommodating plaintiff's religious exercise would
do greater damage to the Army’s compelling interests in uniformity, discipline,
credibility, unit cohesion, and training than the tens of thousands of medical shaving
profiles the Army has already granted.”); Cunningham v. City of Shreveport, 407 F.
Supp. 3d 595, 607 (W.D. La. 2019) (allowing medical exemptions while precluding
religious exemptions removes law from neutrality and general applicability). Maine’s
discriminatory retention of medical exemptions while excluding religious exemptions
must be subjected to, and cannot withstand, strict scrutiny. Put simply, “restrictions
inexplicably applied to one group and exempted from another do little to further [the
government’s] goals and do much to burden religious freedom.” Maryville Baptist
Church, Inc. v. Beshear, 957 F.3d 610, 615 (6th Cir. 2020).
C.

Maine’s Discriminatory Treatment of Religious Exemptions Is
Subject to and Cannot Withstand Strict Scrutiny
1.

Maine’s favorable treatment of exemptions posing equal
risks, and Maine’s questionable risk assumptions
undermine its claim of a compelling interest.
a.

Maine’s favorable treatment of medical exemptions
posing risks equal to excluded religious exemptions
undermines its compelling interest claim.

Where, as here, First Amendment rights are at issue, “the government must
shoulder a correspondingly heavier burden and is entitled to considerably
17

less deference in its assessment that a predicted harm justifies a particular
impingement on First Amendment rights.” Janus v. Am. Fed’n of State, Cnty. &
Mun. Emps., Council 31, 138 S. Ct. 2448, 2472 (2018) (emphasis added). Here,
because Maine’s Vaccine Mandate and its exclusion of religious exemptions implicate
Plaintiffs’ First Amendment rights, Maine “must do more than simply posit the
existence of the disease sought to be cured. It must demonstrate that the recited
harms are real, not merely conjectural.” Turner Broad. Sys., Inc. v. FCC, 512 U.S.
622, 664 (1994); see also Edenfield v. Fane, 507 U.S. 761, 770 (1993). This is so because
“[d]eference to [the government] cannot limit judicial inquiry when First Amendment
rights are at stake.” Landmark Commc’ns, Inc. v. Maine, 435 U.S. 829, 843 (1978).
To be sure, efforts to contain the spread of a deadly disease are “compelling
interests of the highest order.” On Fire Christian Ctr., Inc. v. Fischer, 453 F. Supp.
3d 901, 910 (W.D. Ky. 2020). But Maine’s permitting unvaccinated employees with
medical exemptions to continue in their same healthcare positions while claiming
unvaccinated employees with religious exemptions would put the entire healthcare
system at risk undermines any claim that Maine’s interest is compelling. If any
unvaccinated employees pose a risk to Maine’s healthcare system because
they are unvaccinated, then all unvaccinated employees pose the same risk.
Put simply, Maine’s Vaccine Mandate “cannot be regarded as protecting an interest
of the highest order . . . when it leaves appreciable damage to that supposedly
vital interest unprohibited.” Republican Party of Minn. v. White, 536 U.S. 765,
780 (2002) (emphasis added) (cleaned up). Where, as here (V. Compl. ¶¶ 46–49), the

18

government permits exceptions, the Supreme Court has recognized that such
exceptions “can raise doubts about whether the government is in fact pursuing the
interest it invokes, rather than disfavoring a particular speaker.” Williams-Yulee v.
Florida Bar, 575 U.S. 433, 448 (2015) (cleaned up). Indeed, “[w]here a regulation
already provides an exception from the law for a particular group, the government
will have a higher burden in showing that the law . . . furthers a compelling interest.”
McAllen Grave Brethren Church v. Salazar, 764 F.3d 465, 472 (5th Cir. 2014).
b.

Maine’s claimed compelling interest is based on
questionable risk assumptions as shown by
scientific evidence in the Verified Complaint and
from the CDC.

Maine asserts that mandatory vaccination for healthcare workers is supported
by a compelling interest because nothing else can protect the healthcare industry and
patient health in Maine. (Dkt. 49-4, Shah Decl., ¶¶ 55–56.) Maine claims that
vaccines are the only way to prevent the spread of COVID-19, and that unvaccinated
individuals are at greater risk of infection from the Delta variant than vaccinated.
(Id. ¶ 23.) But, as demonstrated in the Verified Complaint,
A preliminary study has shown that in the case of a breakthrough
infection, the Delta variant is able to grow in the noses of vaccinated
people to the same degree as if they were not vaccinated at all.
The virus that grows is just as infectious as that in unvaccinated people,
meaning vaccinated people can transmit the virus and infect others.
(V. Compl. ¶ 79 (quoting Sanjay Mishra, Evidence mounts that people with
breakthrough infections can spread Delta easily, National Geographic (Aug. 20, 2021),
https://www.nationalgeographic.com/science/article/evidence-mounts-that-peoplewith-breakthrough-infections-can-spread-delta-easily (emphasis added)).) See also
19

Statement from CDC Director Rochelle P. Walensky, MD, MPH on Today’s MMWR,
https://www.cdc.gov/media/releases/2021/s0730-mmwr-covid-19.html

(last

visited

Sept. 17, 201) (noting that “the Delta infection resulted in similarly high SARS-CoV2 viral loads in vaccinated and unvaccinated people”) Thus, Maine’s assumptions of
the relative risks of transmission by vaccinated and unvaccinated employees are
scientifically questionable, further undermining Maine’s claimed compelling interest
in mandating vaccination. And, critically, it is the Government’s burden to
demonstrate the compelling interest. Gonzales v. O Centro Espirita Beneficente Uniao
do Vegetal, 546 U.S. 418, 429 (2006) (““the burdens at the preliminary injunction
stage track the burdens at trial.”). Maine has not met that burden here
2.

Maine Stands Virtually Alone In Its Blanket Refusal to
Extend Religious Accommodations and Its Mandate is Not
the Least Restrictive Means.

Even assuming arguendo that imposing a mandatory COVID-19 vaccination
requirement on healthcare workers in Maine while excluding religious exemptions is
supported by a compelling government interest, the Vaccine Mandate still fails strict
scrutiny because it is not the least restrictive means of achieving the government’s
interest. As the Supreme Court said in Tandon,
narrow tailoring requires the government to show that measures less
restrictive of the First Amendment activity could not address its interest
in reducing the spread of COVID. Where the government permits
other activities to proceed with precautions, it must show that
the religious exercise at issue is more dangerous than those
activities even when the same precautions are applied.
Otherwise, precautions that suffice for other activities suffice for
religious exercise too.

20

141 S. Ct. at 1296–97 (emphasis added). Now that New York’s unconstitutional
exemption regime has been judicially enjoined, 48 other states have demonstrated
that preventing the spread of COVID-19 and encouraging vaccination of patientfacing healthcare workers can still be achieved while protecting the sincerely held
religious beliefs of conscientious objectors. These states have found a way to
accommodate religion under the same alternative protective measures Plaintiffs
request here. Maine stands virtually alone in its refusal to recognize this truth.
In Dr. A, the court held that failure to explain “why they chose to depart from
similar healthcare vaccination mandate issued in other jurisdictions that include the
kind of religious exemption that was originally included” demonstrates a lack of
narrow tailoring. 2021 WL 4734404, at *9.
In Dahl, as is true here, the court found that the university failed strict
scrutiny under the narrow tailoring prong:
the University falters on the narrow tailoring prong. For one, public
health measures are not narrowly tailored if they allow similar conduct
that creates a more serious health risk. That is the case at the
University, which allows non-athletes—the vast majority of its
students—to remain unvaccinated. One need not be a public health
expert to recognize that the likelihood that a student-athlete contracts
COVID-19 from an unvaccinated non-athlete with whom she lives,
studies, works, exercises, socializes, or dines may well meet or exceed
that of the athlete contracting the virus from a plaintiff who obtains a
religious exemption to participate in team activities. For another,
narrow tailoring is unlikely if the University's conduct is “more severe”
than that of other institutions. To that point, several other
universities grant exemptions from their COVID-19 mandates.
2021 WL 4618519, at *5 (emphasis added) (cleaned up)

21

In fact, despite Maine’s contentions that there are no alternatives to a vaccine
mandate that prohibits religious exemptions, healthcare providers in Maine (and
across the country) are regularly providing religious accommodations to healthcare
workers. An employee of the Department of Veterans Affairs at the VA Maine
Healthcare System in Augusta was merely required to check a box requesting a
religious exemption. employee who is employed as Chief Chaplin of Service at the VA
Maine Healthcare System in Augusta notes that the VA “permits and freely grants
exemptions and accommodations to healthcare employees with sincerely held
religious objections to mandatory vaccinations.” (Dkt. 57-2 ¶ 5.) This employee was
granted an accommodation of wearing a mask while at work, and he is “permitted to
carry out [his] duties and responsibilities to the same extent as always,” including
interacting with patients “both with COVID and without COVID.” (Id. ¶ 10.)
Another VA employee was likewise given an accommodation in Maine. (Dkt.
57-2, ¶¶ 2–6.) That employee’s experience highlights the dichotomous treatment of
healthcare workers in Maine. Her VA exemption allowed her to “continue all of [her]
previous duties and responsibilities, including working on-site, interacting with
colleagues, and providing quality and safe care to [her] patients,” and her
accommodation only requires that she wear a mask and submit to testing twice
weekly. (Id. ¶ 10.) This same employee, however, was also a per diem employee at
Eastport Memorial Nursing Home in Maine where she requested a religious
accommodation similar to her VA accommodation but was informed that such

22

accommodations were not available under Maine law, and her employment was
discriminatorily terminated. (Id. ¶ 11.)
The availability and workability of accommodations for patient-facing
healthcare workers with sincerely held religious objections to COVID-19 vaccination
is evident from sea to shining sea, at large employers and small. (Dkt. 57-3 – 57-33
(demonstrating accommodations granted to healthcare employees in Maine, Oregon,
California, Washington, New Mexico, Missouri, Texas, Wisconsin, Minnesota,
Illinois, Colorado, Michigan, Ohio, Pennsylvania, Delaware, Maryland, and Florida.)
Maine’s contention that it simply cannot provide any reasonable accommodation to
the sincerely held religious beliefs of healthcare workers in Maine is demonstrably
false. Indeed, the list of healthcare providers granting exemptions across the country
involves (a) top education and research hospitals, including University of Colorado,
University of Chicago, University of Maryland, Temple University, (b) some of the
largest healthcare providers in the nation, including Kaiser Permanente, Trinity
Health, and Advocate Aurora Healthcare with hundreds of thousands of employees
providing patient-facing care and accommodating the subset of those with sincere
religious beliefs, and (c) mid-size and smaller healthcare providers that have also
readily accommodated patient-facing personnel with sincere religious beliefs. (See
Dkt. 57-3 – 57-33.). See Dr. A, 2021 WL 4734404, at *9 (regulation not narrowly
tailored if other jurisdictions have proven less restrictive alternative available).
And, this point is critical because the government must show it “seriously
undertook to address the problem with less intrusive tools readily available to it,”

23

meaning that it “considered different methods that other jurisdictions have
found effective.” McCullen v. Coakley, 134 S. Ct. 2518, 2539 (2014) (emphasis
added). See also Agudath Israel of Am. v. Cuomo, 983 F.3d 620, 633 (2d Cir. 2020)
(same). And the Governor must “show either that substantially less-restrictive
alternatives were tried and failed, or that the alternatives were closely examined and
ruled out for good reason,” Bruni v. City of Pittsburgh, 824 F.3d 353, 370 (3d Cir.
2016), and that “imposing lesser burdens on religious liberty ‘would fail to achieve
the government’s interest, not simply that the chosen route was easier.’” Agudath
Israel, 983 F.3d at 633 (quoting McCullen, 134 S. Ct. at 495). If 48 other states, the
Department of Veterans Affairs, and a who’s-who of excellent healthcare
providers can accommodate their employees’ religious beliefs and still
advance their interests in protecting patients, Maine can and must do the
same. Maine has brought forth no record facts to even suggest, let alone prove, that
the COVID situation in Maine is so much worse than the rest of the country, to justify
its lonesome, draconian approach. In fact, the Governor has admitted quite the
opposite.1
Despite having the oldest median age population in the country,
Maine, adjusted for population, ranks third lowest in total
number of cases and fourth lowest in number of deaths from
COVID-19 from the start of the pandemic, according to the U.S.
CDC.

Particularly troubling, too, was the district court’s failure to recognize that Defendants carry
the burden on narrow tailoring. (PI Order at 22-23). But, there is no question that Defendants alone
bear the burden to demonstrate narrow tailoring. Ashcroft v. ACLU, 542 U.S. 656, 666 (2004).
1

24

(See dkt. 34-1 at 3, Mills Administration Provides More Time for Health Care Workers
to Meet COVID-19 Vaccination Requirement (emphasis added).) This is a solution in
search of a problem. Indeed, a VA employee who works 9 miles from Defendant
MaineGeneral in Augusta has been given an accommodation, yet Plaintiffs in the
same hospital somehow lost their constitutional rights on that short 10-minute drive.
If this is “narrow tailoring,” that term means nothing.
II.

APPLICANTS HAVE A CLEAR AND INDISPUTABLE RIGHT TO
RELIEF BECAUSE DEFENDANTS’ WHOLESALE REJECTION OF
RELIGIOUS ACCOMMODATIONS IS PLAINLY INCONSISTENT
WITH TITLE VII AND IS THEREFORE NULLIFIED AND
SUPERSEDED BY FEDERAL LAW.
A.

Title VII Supersedes Maine’s Rule Because Even the Employer
Defendants Have Admitted That Title VII’s Requirement of
Religious Accommodation and Maine’s Revocation of Religious
Exemptions Are in Conflict and That They Cannot Comply With
Both.

Employer Defendants’ primary contention concerning their utter refusal to
comply with the demands of Title VII is that Maine’s revocation of religious
exemptions from the COVID-19 Vaccine Mandate are not inconsistent with Title VII,
and thus they need not comply. (V. Compl. ¶1.) Employer Defendants are wrong. Title
VII plainly requires that every employer with over 15 employees (which includes all
Employer

Defendants

(V.

Compl.

¶ 171))

must

provide

religious

accommodations “unless an employer demonstrates that he is unable to reasonably
accommodate an employee’s or prospective employee’s religious observance or
practice without undue hardship.” 42 U.S.C. § 2000e(j). See also Trans World
Airlines, Inc. v. Hardison, 432 U.S. 63, 75 (1977) (“the employer’s statutory obligation

25

to make reasonable accommodation for the religious observance of its employees,
short of incurring an undue hardship, is clear” (emphasis added)). Despite that
mandate of federal law, Maine has issued a wholesale revocation of religious
exemptions and accommodations for healthcare workers and has abolished the entire
exemption and accommodation process under Title VII for religious objectors. (V.
Compl. ¶ 46 (noting that Maine “eliminate[d] the ability of health care workers in
Maine to request and obtain a religious exemption and accommodation from the
COVID-19 Vaccine Mandate”).) Additionally, Government Defendants made it
abundantly clear that “[t]he health care immunization law has removed the
allowance for philosophical and religious exemptions.” (V. Compl. ¶ 49
(quoting Division of Disease Surveillance, Maine Vaccine Exemption Law Change
2021,

https://www.maine.gov/dhhs/mecdc/infectious-disease/immunization/maine-

vaccine-exemption-law-changes.shtml (emphasis added)).)
Thus, Title VII’s requirement that employers provide at least a process for
seeking an accommodation for an employee’s sincerely held religious beliefs, and
Maine’s refusal to provide such a process, are in direct conflict. Under such a scheme,
the Supremacy Clause demands that Defendants comply with Title VII. Where—as
here—federal law “imposes restrictions [and] confers rights on private actors,” and
Maine law “imposes restrictions that conflict with the federal law,” “the federal law
takes precedence and the state law is preempted.” Murphy v. NCAA, 138 S. Ct.
1461, 1480 (2018) (emphasis added). Employer Defendants take great pains to
suggest that Maine’s refusal to extend religious protections is not preempted by Title

26

VII’s demand that employers provide a reasonable accommodation for religious
beliefs. This is incorrect. Title VII supersedes state laws where—as here—
“compliance with both federal and state regulations is a physical impossibility.”
California Fed. Savings & Loan Assoc. v. Guerra, 479 U.S. 272, 281 (1987) (citing
Florida Lime & Avocado Growers, Inc. v. Paul, 373 U.S. 132, 142-43 (1963)).
In their refusals to consider Plaintiffs’ requests for exemption and
accommodation, Employer Defendants have claimed that it is not impossible for them
to comply with both Title VII and Maine’s revocation of religious exemptions from the
COVID-19 Vaccine Mandate. However, Employer Defendants’ newly minted
contentions are plainly belied by the undisputed facts in the Verified Complaint. As
shown there, Employer Defendants made it clear that they could not comply with
Title VII because it would violate state law. (See, e.g., V. Compl. ¶ 86 (“I can share
MaineHealth’s view that federal law does not supersede state law in this
instance. . . . Requiring MaineHealth to violate state law by granting unrecognized
exemptions would impose such a hardship. As such, we are not able to grant a
request for a religious exemption from the state mandated vaccine.”); id. ¶ 94
(“Allowing for a religious exemption would be a violation of the state mandate issued
by Governor Mills. So, unfortunately, that is not an option for us.”).) Thus, Employer
Defendants admit that Maine’s revocation of a religious exemption is in direct conflict
with Title VII and that both cannot be complied with by Employer Defendants.
Employer Defendants’ admission is fatal. “[T]he Supremacy Clause . . .
invalidates state laws that interfere with, or are contrary to, federal law.

27

Under the Supremacy Clause . . . state law is nullified to the extent that it
actually conflicts with federal law.” Hillsborough Cnty. v. Automated Med. Labs.,
Inc., 471 U.S. 707, 712–13 (1985) (emphasis added) (cleaned up). Employer
Defendants admit that compliance with both is impossible, which requires a finding
that Title VII supersede Maine’s inconsistent and contrary rules. California Fed.
Savings & Loan, 479 U.S. at 281. Maine’s discriminatory revocation of religious
exemptions simply does not relieve Employer Defendants of their obligations under
Title VII, and the Supremacy Clause demands that Maine provide the protections
explicitly provided by Title VII.
B.

Title VII Explicitly Preempts State Laws, Like Maine’s, That
Require the Doing of an Act That Is Prohibited by Title VII.

Under the plain language of Title VII, Maine’s refusal to recognize and
accommodate Plaintiffs’ sincerely held religious beliefs is preempted and overridden
by Title VII. Indeed,
Nothing in this subchapter shall be deemed to exempt or relieve any
person from any liability, duty, penalty, or punishment provided by any
present or future law of any State or political subdivision of a State,
other than any such law which purports to require or permit the
doing of any act which would be an unlawful employment
practice under this subchapter.
42 U.S.C. § 2000e-7 (emphasis added). Thus, because Maine’s rule revoking religious
exemptions and accommodations “purports to require” discrimination on the basis of
religion, and purports to abolish the exemption and accommodation procedure
explicitly provided in Title VII, each of which are “an unlawful employment practice”

28

under Title VII, see 42 U.S.C. §2000e-2(a), Maine’s rules are superseded and
preempted by Title VII.
In addition to the explicit textual preemption of Title VII, abundant precedent
demonstrates that Maine cannot require employers to engage in a practice that is
unlawful under Title VII. See, e.g., Coalition for Economic Equality v. Wilson, 122
F.3d 692, 710 (9th Cir. 1997) (noting that Title VII preempts state laws that “purport
to require the doing of any act which would be an unlawful employment practice
under Title VII”); Brown v. City of Chicago, 8 F. Supp. 2d 1095, 1112 (N.D. Ill. 1998)
(noting that Congress “‘intended to supercede [sic] all provisions of State law which
require or permit the performance of an act which can be determined to constitute an
unlawful employment practice under the terms of Title VII of the Act or are
inconsistent with any of its purposes’” (quoting Rinehart v. Westinghouse Elec. Corp.,
No. C 70-537, 1971 WL 174, *2 (N.D. Ohio Aug. 20, 1971)); LeBlanc v. S. Bell Tel. &
Tel. Co., 333 F. Supp. 602, 608 (E.D. La. 1971) (noting that Louisiana’s employment
law provisions that conflict with Title VII “are invalid under the Supremacy Clause”).
Moreover, Employer Defendants are not permitted to rely upon Maine’s revocation of
protections for religious objectors as a defense to refusing to do what Title VII
requires. See, e.g., Guardians Ass’n v. Civil Serv. Comm., 630 F.2d 79, 104–105 (2d
Cir. 1980) (“Nor can the City justify the use of rank-ordering by reliance on what it
contends are requirements of state law. Title VII explicitly relieves employers from
any duty to observe a state hiring provision “which purports to require or permit” any
discriminatory employment practice.” (citation omitted))

29

III.

APPLICANTS ARE SUFFERING IRREPARABLE HARM.
A.

Applicants Are Suffering Irreparable First Amendment Injury.

While it is generally true that a loss of employment does not constitute
irreparable harm, that ignores the seminal First Amendment questions before
the Court. And there can be no dispute that State Defendants’ substantial burden
on Plaintiffs’ religious exercise constitutes irreparable harm as a matter of law. As
this Court has held time and again, Plaintiffs “are irreparably harmed by the loss of
free exercise rights for even minimal periods of time.” Tandon, 141 S. Ct. at 1297.
Indeed, “[t]here can be no question that the challenged [mandate], if
enforced, will cause irreparable harm.” Catholic Diocese, 141 S. Ct. at 67
(emphasis added). Plaintiffs’ constitutional injuries in the instant matter are
presumed irreparable harm. See, e.g., Sindicator Puertorriqueno de Trabajaddores v.
Fortuno, 699 F.3d 1, 11 (1sr Cir. 2012) (“irreparable injury is presumed” in First
Amendment cases). Put simply, “a violation of plaintiffs’ constitutional right, and in
particular, a violation of First Amendment rights, constitutes irreparable harm, per
se.” Westchester Legal Servs., Inc. v. Westchester Cnty., 607 F. Supp. 1379, 1385
(S.D.N.Y. 1985).
Defendants’ collective false reduction, that Plaintiffs face only the loss of a job
rather than the unconscionable loss of First Amendment rights at the hand of State
Defendants, must be rejected. The impact of Maine’s far-reaching mandate cannot be
understated. Plaintiffs cannot simply go from one employer who unlawfully
discriminates, and get a job at a different employer to feed their families while their

30

legal claims are pending. Maine has essentially ensured the Plaintiffs cannot work
anywhere in the entire State. If that’s not irreparable harm, the word has no
meaning. Indeed, “[t]he harm [Plaintiffs] would suffer is not only, as
[Defendants] argue[], the loss of [their] job[s] per se, but also the penalty for
exercising [their First Amendment] rights. The chilling effect of that
penalty cannot be adequately redressed after the fact.” Romero Feliciano v.
Torres Gaztambide, 836 F.2d 1, 4 (1st Cir. 1987) (emphasis added).
Indeed, where the Governor’s mandate “conflicts with plaintiffs’ and other
individuals’ federally protected right to seek a religious accommodation from their
individual employers,” injunctive relief is appropriate. Dr. A, 2021 WL 4734404, at
*10. As the Sixth Circuit held, “[e]nforcement of the [government’s COVID-19 vaccine
mandate] would deprive plaintiffs of their First Amendment rights, an irreparable
injury.” Dahl, 2021 WL 4618519, at *6.
B.

Injunctive Relief Is Needed to Preserve The Status Quo For
Applicants’ Title VII Claims.

Even in the Title VII context, injunctive relief is available to preserve the
status quo. See Sheehan v. Purolator Courier Corp., 676 F.2d 877, 884 (2d Cir. 1981).
Specifically, the Second Circuit held that “if the court eventually will have jurisdiction
of the substantive claim and an administrative tribunal has preliminary jurisdiction,
the court has incidental equity jurisdiction to grant temporary relief to
preserve the status quo pending ripening of the claim for judicial action on
the merits.” Id. (emphasis added). It continued, “within the framework of Title VII,
we are persuaded that Congress intended the federal courts to have resort to all of
31

their traditional equity powers, direct and incidental, in aid of the enforcement of the
Title.” Id. at 885. Indeed,
It is noteworthy that the court is the only arbiter of the merits of a
discrimination claim, and we think it plain that for the court to
renounce its incidental equity jurisdiction to stay such
employer retaliation pending the EEOC's consideration would
frustrate Congress’s purposes. Unimpeded retaliation during the
now-lengthy (180-day) conciliation period is likely to diminish the
EEOC’s ability to achieve conciliation. It is likely to have a chilling effect
on the complainant’s fellow employees who might otherwise desire to
assert their equal rights, or to protest the employer’s discriminatory
acts, or to cooperate with the investigation of a discrimination charge.
And in many cases the effect on the complainant of several
months without work or working in humiliating or otherwise
intolerable circumstances will constitute harm that cannot
adequately be remedied by a later award of damages. Given the
singular role in 1964 of the individual private action as the only method
of enforcing Title VII, and the continued view in 1972 of that right of
action as “paramount,” we cannot conclude that Congress
intended to preclude the courts' use of their incidental equity
power in these circumstances to prevent frustration of
Congress’s goals.
Id. at 885-86 (emphasis added).
Put simply, “where a person has filed a Title VII charge with the EEOC,
the court has jurisdiction to entertain a motion for temporary injunctive
relief against employer retaliation while the charge is pending before the
EEOC and before the EEOC has issued a right to sue letter.” Id. at 887
(emphasis added). See also Holt v. Continental Grp., Inc., 708 F.2d 87, 89-90 (2d Cir.
1983) (same); Bermand v. New York City Ballet, Inc., 616 F. Supp. 555, 556 (S.D.N.Y.
1985) (“Decisions by our Court of Appeals, however, firmly establish . . . this Court
has jurisdiction to entertain applications for preliminary injunctive relief for the
purpose of preserving the status quo pending EEOC’s investigative and conciliatory
32

process.” (emphasis added)). Plaintiffs awarded immediate injunctive relief to remedy
their present and ongoing loss of First Amendment rights
IV.

PLAINTIFFS SATISFY THE OTHER IPA REQUIREMENTS.
As Dr. A recognized when it enjoined New York’s similar scheme, “the public

interest lies with enforcing the guarantees enshrined in the Constitution and federal
anti-discrimination laws.” Dr. A, 2021 WL 4734404, at *10. Indeed, “[p]roper
application of the Constitution . . . serves the public interest [because] it is
always in the public interest to prevent a violation of a party’s
constitutional rights.” Dahl, 2021 WL 4618519, at *6 (emphasis added).
Additionally, “the balance of the hardships clearly favors plaintiffs.” Id.
(emphasis added). Indeed, as there, “defendants have not shown that granting the
same benefit to religious practitioners that was originally included in the August 18
Order would impose any more harm—especially when Plaintiffs have been on the
front lines of stopping COVID for the past 18 months while donning PPE and
exercising other proper protocols in effectively slowing the spread of the disease.” Id.
The IPA should issue today.
CONCLUSION
Because the Governor’s COVID-19 vaccine mandate completely removes any
protections for Plaintiffs’ sincerely held religious beliefs and subjects them to
especially harsh treatment, it violates the First Amendment and should be
immediately enjoined pending this appeal, to avoid irreparable harm.

33

Dated this October 15, 2021.
Respectfully submitted,
Mathew D. Staver (Counsel of Record)
Anita L. Staver
Horatio G. Mihet
Roger K. Gannam
Daniel J. Schmid
LIBERTY COUNSEL
P.O. Box 540774
Orlando, FL 32853
(407) 875-1776
court@LC.org |hmihet@LC.org
rgannam@LC.org | dschmid@LC.org
Counsel for Applicants

34

